3FF1CE 0F7HE.CLERk

rATES COURT OF APPEALS
- FIFTH STREET,,ROOM 540
SINNATI, OHIO 45202-3988
.OFFICIAL BUSINESS

=NALTY FOR PRIVATE USES300

rfli

"

S0&V*8

rV

J° 800 :

aojyW'-’as
pm’a

i

nfeo^oST‘Cl-ASS
062S0011352675
45202
§

ML 1 7 2020

DEBORAH S. HUNT

«

«4&

•?r*

rp~

/*
437£4-B3dSiE§3
4 5 2 ©2 >'E S SIS

'■“aa

Pz

2.

■&®07/i5 /2S

RETURN TO SENDER
MOT DELI VERAS L£ AS ' ADO-RE55S B
UNABLE TO FORWARD

;?

H *

■it**.

WI.XIE

X

At

SC:

452623*8899

* 15 3T'5 -.045 IS - 3 0- S9

4i
;
«
J

S

I
■J
1

■*

:

r

utKUiAn'J. MUNI, Clerk

!
!

Darryl Taylor
#71518
Noble Correctional Institution
15708 McConnelsville Road
Caldwell, OH 43724

!

J-3.

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

riLcu
Jun 30, 2020
DEBORAH S. HUNT, Clerk

i

i

DARRYL TAYLOR,
Petitioner-Appellant,
v.

TIMOTHY E. BUCHANAN,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

j

ORDER

I
!

Before: STRANCH, Circuit Judge.
Darryl Taylor, an Ohio prisoner proceeding pro se, appeals the district court’s judgment
denying his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Taylor has filed an
application for a certificate of appealability (“COA”), see Fed. R. App. P. 22(b), and a motion to
proceed in forma pauperis on appeal, see Fed. R. App. P. 24(a)(5).
In 2015, an Ohio jury convicted Taylor of one count of trafficking oxycodone in the
presence ofjuveniles, in violation of Ohio Revised Code § 2925.03(A)(l)(C)(l)(c); two counts of
trafficking oxycodone, in violation of Ohio Revised Code § 2925.03(A)(l)(C)(l)(c); and one count
of trafficking oxycodone, in violation of Ohio Revised Code § 2925.03(A)(2)(C)(l)(c). Taylor’s
convictions stemmed from three controlled drug purchases through a confidential informant,
which led to a search warrant and Taylor’s ultimate arrest. The trial court sentenced Taylor to a
total of thirteen years’ imprisonment.
On direct appeal, Taylor argued that: (1) his convictions were supported by insufficient
evidence and were against the manifest weight of the evidence; and (2) the trial court erred by
denying his motion to suppress evidence obtained by the confidential informant. The Ohio Court
of Appeals affirmed Taylor’s convictions but remanded for resentencing because the trial court
had failed to notify Taylor that he would be subject to post-release control. State v. Taylor, No.

rf-3

V*

!T

A / J TOUT, Cli.

iu

rt.pp. Apr. //, i\) lb), perm. app. denied, 61) N.B.3d

6 (Ohio 2016). On remand, the trial court held a new sentencing hearing and reimposed Taylor’s
thirteen-year sentence.
In July 2016, Taylor filed an application to reopen his direct appeal under Rule 26(B) of
the Ohio Rules of Appellate Procedure, in which he argued that appellate counsel rendered
ineffective assistance by failing to argue that: (1) the trial court violated his Sixth Amendment
right to counsel by inadequately inquiring into whether a conflict that he had with trial counsel
constituted “a complete breakdown of communication or an irreconcilable conflict which leads to
an apparently unjust verdict”; and (2) trial counsel was ineffective during voir dire for not seeking
to remove an allegedly biased juror for cause. The Ohio Court of Appeals denied the Rule 26(B)
application, concluding that Taylor had failed to comply with the mandatory requirements of Rule
26(B)(2)(d) and (e) (requiring an application to include a sworn statement and parts of the record
as required, respectively). The Ohio Supreme Court declined to accept jurisdiction over Taylor’s
appeal.
In April 2017, Taylor filed a § 2254 petition, in which he argued: (1) law enforcement
officers’ search of his home was performed in execution of a search warrant that was not supported
by probable cause; (2) “[t]he admission of evidence alleged to confirm the first controlled buy of
drugs violated [his] right against unreasonable search and seizure”; (3) his convictions were
supported by insufficient evidence and were against the manifest weight of the evidence;
(4) appellate counsel rendered ineffective assistance by failing to argue on direct appeal that the
trial court denied him his Sixth Amendment right to counsel; and (5) appellate counsel rendered
ineffective assistance by failing to argue on direct appeal that he was denied his right to a fair and
impartial jury. The magistrate judge recommended that the district court deny the habeas petition,
concluding that Claims One and Two were not cognizable on federal habeas review, Claim Three
lacked merit, and Claims Four and Five were procedurally defaulted. Over Taylor’s objections,
the district court adopted the magistrate judge’s recommendation, dismissed the habeas petition
with prejudice, and declined to issue a COA.

pH

i

.s.

lui iiuvr OVVh.3 A

un au live claims mat he raised in his habeas petition. A COA

may be issued “only if the applicant has made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). In order to be

\

entitled to a COA, the movant must demonstrate “that jurists of reason could disagree with the
district court’s resolution of his constitutional claims or that jurists could conclude that the issues
presented are adequate to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327.

;
j

When the district court denies a habeas petition on procedural grounds, a COA should issue “when
the prisoner shows, at least, that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000).

i
i
|

f

In Claims One and Two, Taylor argued that his Fourth Amendment rights were violated.
Those claims are barred by Stone v. Powell, 428 U.S. 465 (1976), which precludes federal habeas

1
5

relief “where the State has provided an opportunity for full and fair litigation of a Fourth
Amendment claim,” id. at 481 -82,494. Thus, a Fourth Amendment claim is barred by Stone unless

i;

“the state provided no procedure by which the prisoner could raise his Fourth Amendment claim,
or the prisoner was foreclosed from using that procedure.” Good v. Berghuis, 729 F.3d 636, 639
(6thCir, 2013) (quoting Willettv. Lockhart, 37 F.3d 1265,1273 (8thCir. 1994)) (emphasisadded).
The record reflects that Taylor raised his Fourth Amendment claims in a suppression motion and
on direct appeal. See Taylor, 2016 WL 1734084, at *7-9. The State therefore offered Taylor a
procedure by which he could assert his Fourth Amendment claims, and he availed himself of that

i

procedure when he raised those claims in the Ohio trial and appellate courts. “That suffices to
preclude review of the claim[s] through a habeas corpus petition under Stone v. Powell.” Good,
i

729 F,3d at 640. Reasonable jurists could not debate the district court’s conclusion that Taylor’s
Fourth Amendment claims are not cognizable in a federal habeas corpus proceeding.
In Claim Three, Taylor contended that his convictions are supported by insufficient
evidence. In reviewing the sufficiency of the evidence, “the relevant question is whether, after

A-5

!

* '***&

vuw v v lV^WilVV ill UiC

iigiH most xavoraoie to the prosecution, any rational trier of fact could

have found the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia,
443 U.S. 307, 319 (1979). Federal habeas courts “do not reweigh the evidence, re-evaluate the

1
i
)

credibility of witnesses, or substitute our judgment for that of the jury.” Brown v. Konteh, 567

i

F.3d 191,205 (6th Cir. 2009).

!

The jury convicted Taylor of multiple counts section 2925.03(A)( 1), which states that “[n]o

:

person shall knowingly . . . [sjell or offer to sell a controlled substance or a controlled substance

i

analog.” The jury also convicted Taylor of one count of section 2925.03(A)(2), which provides:
[n]o person shall knowingly ... [p]repare for shipment, ship, transport, deliver,
prepare for distribution, or distribute a controlled substance or a controlled
substance analog, when the offender knows or has reasonable cause to believe that
the controlled substance or a controlled substance analog is intended for sale or
resale by the offender or another person,

i
1

!

Trafficking under section 2925.03(A)(1) requires an intent to sell, whereas trafficking under

;

section 2925.03(A)(2) requires that the offender must know that the substance is intended for sale,
5

but the sale can be made by a person other than the offender. State v. Cabrales, 886 N.E.2d 181,
188-89 (Ohio 2008). Under Ohio Revised Code § 2915.03(A)(l)(C)(l)(c), if a person violates

;
|

i

section 2925.03(A) “in the vicinity of a... juvenile, aggravated trafficking in drugs is a felony of
the second degree, and the court shall impose as a mandatory prison term one of the prison terms

!

prescribed for a felony of the second degree.” “An offense is ‘committed in the vicinity of a
juvenile’ if the offender commits the offense within one hundred feet of a juvenile or within the
view of a juvenile.” Ohio Rev. Code § 2925.01 (BB). A “juvenile” is a person under eighteen

1

|

years of age. Ohio Rev. Code § 2925.01(N).
The Ohio Court of Appeals rejected Taylor’s sufficiency-of-the-evidence claim on direct

I

appeal, concluding that “the state proved that Taylor did more than just intend to sell, he actually
knowingly sold oxycodone to the confidential informant.” Taylor, 2016 WL1734084, at *5 (citing
Ohio Revised Code § 2901.22(B)). In reaching that determination, the Ohio Court of Appeals
recounted that:

i

i
\

I

7$'6

v i mvuvv ViiUV 4- ayiw mei wnn me connaential informant the
day before the first controlled buy and instructed her of the protocol she must follow
to purchase oxycodone from him. Several investigators and the confidential
informant testified about the three controlled buys and the jury saw the audio-visual
recordings of the three sales. The state also presented photographs and testimony
concerning the drugs and money recovered in the search of Taylor’s home, as well
as the testimony and laboratory report of a forensic scientist with the Bureau of
Criminal Investigation who testified that she analyzed the tablets Taylor sold and
those found in the search and determined that they were 30 mg oxycodone tablets.
The state presented testimony that the bulk amount of oxycodone is 450 milligrams
and that each of Taylor’s three sales as well as the amount found in his house during
the search met or exceeded the bulk amount. [Ohio Rev. Code §] 2925.01(D)(1)(d).

I
i
\

I

Id. at *6. The Ohio Court of Appeals also concluded that the State presented sufficient evidence
to sustain Taylor’s trafficking-in-the-presence-of-juveniles conviction, noting that the confidential
informant testified “that she personally knows Taylor’s children who are both under the age of 18.

j

She identified their gender, race, and ages, and was fairly certain of both of their names and she

l

stated that they were about 20 feet away from her when she purchased the oxycodone.” Id. The

i

I

;

district court adopted the magistrate judge’s conclusion that the state appellate court did not
unreasonably, apply Jackson in adjudicating this claim. Reasonable jurists could not debate the
district court’s resolution of this claim.
To the extent Taylor separately contended his convictions are against the manifest weight

l

i
:

of the evidence, that is a state law claim unavailable for federal habeas review independent from
the constitutional sufficiency of the evidence claim just considered. See Johnson v. Havener, 534

i

F.2d 1232, 1234 (6th Cir. 1976).
In Claims Four and Five, Taylor reasserted the ineffective-assistance-of-appeJ!ate-counsel
claims that he advanced before the Ohio Court of Appeals in his Rule 26(B) application. Those
claims are procedurally defaulted because Taylor failed to attach to his Rule 26(B) application the

ii
i
I

i

relevant parts of the record that were available to him as required by Rule 26(B)(2)(e), the state
courts declined to review the merits of Taylor’s claims on that basis, and Rule 26(B)(2)(e) is an
independent and adequate state procedural rule. See Hutchison v. Bell, 303 F.3d 720,737 (6th Cir.

I

I

I

I

2002); State v. McNeill, 700 N.E.2d 613, 614 (Ohio 1998) (per curiam).
f

i
\

i
l

~ j/wuuuawi iuu&L siiuw cause lor the default and actual

j

prejudice as a result of the alleged violation of federal law, or demonstrate that failure to consider

1

the claims will result in a fundamental miscarriage of justice.” Coleman v. Thompson, 501 U.S.

1!

722, 750 (1991). A fundamental miscarriage of justice requires a showing of actual innocence.
See Dretke v. Haley, 541 U.S. 386, 393 (2004). The district court determined that Taylor did not
establish the necessary cause and prejudice to excuse the default of his ineffective-assistance-ofappellate-counsel claims. Although Taylor argued below that his default should be excused

I

because the trial court “judge exhibited hostile ineptitude,” that does not explain why he failed to

j

comply with Rule 26(B)(2)’s mandatory requirements when he applied to reopen his direct appeal.
Further, Taylor did not demonstrate that the failure to consider his procedurally defaulted claims

I

would result in a fundamental miscarriage of justice. See McCleskey v. Zant, 499 U.S. 467,49495 (1991); Murray v. Carrier, 477 U.S. 478,496 (1986). Reasonable jurists could not debate the

;

district court’s procedural ruling. See Slack, 529 U.S. at 484.
Accordingly, Taylor’s COA application is DENIED and his motion of pauper status is
DENIED as moot.

ENTERED BY ORDER OF THE COURT

.

Deborah S. Hunt, Clerk

j
I

\
\

I
I

1

i

^ wiv i i^iw s vwwi\ i

FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Darryl Taylor,
Petitioner,
Case No. 1:17cv267
v.

Judge Michael R. Barrett

Tim Buchanan, Warden,
Noble Correctional Institution,
Respondent.
JUDGMENT IN A CIVIL CASE
[
[ X]

] JURY VERDICT: This action came before the Court for a trial by jury.
The issues have been tried and the Jury has rendered its verdict.
DECISION BY COURT: This action came to trial or hearing before the
Court. The issues have been tried or heard and a decision has been
rendered.

IT IS ORDERED AND ADJUDGED: The Report and Recommendations (Doc. 10) and
the Supplemental Report and Recommendations (Doc. 22) are ADOPTED. The Report
and Recommendations (Doc. 18) is ADOPTED AS MODIFIED to provide for the
vacating of the Court’s prior Order (Doc. 11) adopting the initial Report and
Recommendations (Doc. 10) in addition to reopening the Clerk’s Judgment (Doc. 12).
The Petition (Doc. 1) is DISMISSED with prejudice. Because reasonable jurists would
not disagree with this conclusion, Petitioner is DENIED a certificate of appealability and
the Court CERTIFIES that any appeal would be objectively frivolous.
Date: January 8, 2020

Richard W. Nagel. Clerk
Clerk
By:

S/Barbara A. Crum
Deputy Clerk

i«l 8 toiV

V i

rt, s

LtU 1 r\i^ I WUK i

SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
DARRYL TAYLOR
CASE NO.: 1:17-cv-267
Petitioner,
Judge Michael R. Barrett
Magistrate Judge Michael R. Merz
v.
TIM BUCHANAN, Warden,
Noble Correctional Institution,
Respondent.
OPINION AND ORDER
This matter is before the Court on the Report and Recommendations of the
Magistrate Judge (Doc. 10), Petitioner’s pro se objections (Doc. 19), the Supplemental
Report and Recommendations of the Magistrate Judge (Doc. 22), and Petitioner’s pro se
supplemental objections (Doc. 23)—all pertaining to a petition for writ of habeas corpus.
The Magistrate Judge also issued a Report and Recommendations (Doc. 18), which
pertained to an intervening judgment (Doc. 12) that had adopted his initial Report and
Recommendations. Convinced that this judgment was the result of an improper date
calculation related to Petitioner’s objection deadline, the Magistrate Judge recommended
that it be reopened.
Having considered the filings de novo, the Court will grant Petitioner’s Motion to
Alter or Amend Judgment (Doc. 17) but will dismiss his petition for writ of habeas corpus
(Doc. 1).

1

A10

Petitioner was convicted after a trial by jury of trafficking in oxycodone. State v.
Taylor, 2016-Ohio-2781, fllf 1, 5 (Ohio Ct. App.). 1

His conviction turned upon three

controlled buys through a confidential informant, which led to a search warrant and his
ultimate arrest. Id. at

5-7. He appealed his conviction and the Fourth District Court

of Appeals (the “Fourth District”) affirmed, except to the extent that the post-release
control portion of his sentence was vacated for failure to advise of the same at the time
of sentencing. Id. at U 42. Petitioner then sought to reopen the appeal to assert a claim
of ineffective assistance of appellate counsel under Ohio App. R. 26(B) (Doc. 6, PAGEID
164-178) as his petition for review by the Supreme Court of Ohio was pending. Both
requests were ultimately denied. (See id. at PAGEID 163, 182, 196).
Petitioner’s federal habeas petition sets out five grounds for relief:
GROUND 1: Petitioner’s motion to suppress evidence in his case
should have been granted because of the lack of a proper search
warrant due to the insufficient probable cause and sufficiency of
the affidavit, thus, violating his Fourth Amendment of the United
States Constitution and Article 1, Section 14 of the Ohio
Constitution.
GROUND 2: The admission of evidence alleged to confirm the
first controlled buy of drugs violated the petitioner’s right against
unreasonable search and seizure under the Fourth Amendment of
the United States Constitution and Article 1, Section 14 of the
Ohio Constitution.
GROUND 3: The evidence presented at trial is insufficient to
support petitioner’s conviction for drug trafficking, which
conviction is manifestly against the weight of the evidence, and the
defense of entrapment is established, thus, acquittal is appropriate.
GROUND 4: The petitioner was denied effective assistance of
appellate counsel when he failed to raise petitioner’s constitutional
1 The “determination of a factual issue made by a State court shall be presumed to be correct” absent
“clear and convincing evidence” otherwise. 28 U.S.C. § 2254(e)(1).
2

All

GROUND 5: The petitioner was denied effective assistance of
appellate counsel when he failed to raise petitioner’s constitutional
right to raise petitioner’s constitutional right to a fair trial by
impartial, indifferent jurors.
(Doc. 10, PAGEID 525-26 (quoting Doc. 1, PAGEID 4, 6, 11, 16, and 20)).
II.

STANDARD OF REVIEW
When objections to a magistrate judge’s report and recommendation are received

on a dispositive matter, the assigned district judge “must determine de novo any part of
the magistrate judge's disposition that has been properly objected to.” Fed. R. Civ. P.
72(b)(3). After review, the district judge “may accept, reject, or modify the recommended
disposition; receive further evidence; or return the matter to the magistrate judge with
instructions.” Id/, see also 28 U.S.C. § 636(b)(1). General objections are insufficient to
preserve any issue for review: “[a] general objection to the entirety of the [magistrate
judge’s] report has the same effects as would a failure to object.” Howard v. Sec'y of
Health and Human Servs., 932 F.2d 505, 509 (6th Cir. 1991).

Nevertheless, the

objections of a petitioner appearing pro se will be construed liberally. See Erickson v.
Pardus, 551 U.S. 89, 94 (2007) (citing Estelle v. Gamble, 429 U.S. 97, 106 (1976)).
III.

ANALYSIS
The Court has reviewed the Magistrate Judge’s findings and considered all of the

filings in this matter de novo. As a threshold matter, the Court finds that the Report and
Recommendations (Doc. 18) concerning Petitioner’s Motion to Alter or Amend Judgment
(Doc. 17) correctly determines that Petitioner’s objections to the initial Report and
Recommendations should be considered timely.

The Court will therefore adopt this

Report and Recommendations—modified only to provide for the vacating of the Court’s
3

A-13-

hi iV

IS ilUUI

xopun cuiu r\euummenaations (uoc. iU) in

addition to reopening the Clerk’s Judgment (Doc. 12). The Court further determines that
Petitioner’s

objections

should

be

overruled,

and

that the

initial

Report and

Recommendations (Doc. 10) and the Supplemental Report and Recommendations (Doc.
22) should be adopted—adding the following analysis as it relates to Petitioner’s pending
supplemental objections.
Petitioner first objects to the Magistrate Judge’s conclusion that he has not
demonstrated cause and prejudice necessary to excuse the procedural default of his
ineffective assistance of appellate counsel claims—grounds four and five. In support of
his objection, he incorporates arguments made in his initial objections (See Doc. 23
(referencing Doc. 19, PAGEID 579-583)) and attaches a portion of the state court record
pertaining to the motion to suppress and potential withdrawal of his trial counsel (Doc. 61, PAGEID 254-64). None of these materials explain (much less excuse) Petitioner’s
admitted (see Doc. 23, PAGEID 601) procedural default with respect to his ineffective
assistance of appellate counsel claims, and Petitioner does not object to any specific
aspect of the Magistrate Judge’s reasoning that led him to recommend that these claims
were procedurally defaulted. (See Doc 10, PAGEID 536-41).
Petitioner’s first objection also appears to conflate the procedural default of the
ineffective assistance of appellate counsel claims with a procedural default of the Fourth
Amendment claims.

As noted by the Magistrate Judge, he did not make his

recommendations on the Fourth Amendment claims on the basis of procedural default,

4

^ 13

v----

22, PAGEID 594). Nevertheless, to the extent that Petitioner’s references to his initial
objections (Doc. 19, PAGEID 579-583) and the state court trial record (Doc. 6-1) could
be construed as a specific objection to the Magistrate Judge’s application of Powell, it
remains unavailing. The Court concludes that Petitioner had “an available avenue ... to
present his claim to the state courts[.]” Good v. Berghuis, 729 F.3d 636, 639 (6th Cir.
2013). In so finding, the Court is not required to make “an inquiry into the adequacy of
the procedure actually used to resolve that particular claim.” Id. But it is clear here that
the state court was interested in an adequate procedural mechanism to consider
Petitioner’s Fourth Amendment claims. Petitioner’s trial counsel and the state had agreed
that a motion to suppress “would have no basis in the law[,]” (Doc. 6-1, PAGEID 256), yet
the trial court nevertheless asked that Petitioner’s counsel prepare and file the motion
based on Petitioner’s stated reasons (id. at PAGEID 260-61 ).3 The Fourth District also

2 Powell held that "where the State has provided an opportunity for full and fair litigation of a Fourth Amendment
claim, a state prisoner may not be granted federal habeas corpus relief on the ground that evidence obtained in an
unconstitutional search or seizure was introduced at his trial." Id. at 494.
3 In his first set of objections, incorporated by reference (see Doc. 23, PAGEID 601), Petitioner alludes to being
coerced into waiving a conflict with his trial attorney—arguably an impediment to "full and fair" litigation on
Fourth Amendment issues. (See Doc. 19, PAGEID 580). The record, however, does not bear this out. The following
exchange took place a March 6, 2015 hearing:
Court: And would you be willing to have [trial counsel] continue as your attorney and we take up
this issue that concerns you [Petitioner] to get to the bottom of this and to figure out what the
law is on it and have a preliminary decision. In other words this won't be part of the trial but this
will be something that I'll be required to rule on, in writing. If I make a mistake in a case you've
always got the Fourth District Court of Appeals, that you have an absolute right to take your case
to if, at the end of this trial, you feel like my rulings were wrong on anything. You have the right
to have them look over everything that I do. That's a three Judge panel that looks over what I do
to make sure mistakes don't cause a, a um, situation of wrongful conviction or wrongful
imprisonment. What do you think?
Defendant: I think that would be fair. Um, I have no objections to it.

***

5

A~ 14

2781 at UTI29-38.
For his second objection, Petitioner disagrees with the Magistrate Judge’s
conclusion that consent is not a defense to a drug trafficking charge. (Doc. 22, PAGEID
598). He maintains that State v. Mehozonek, 8 Ohio App.3d 271,274-75 (Ohio Ct. App.
1983), controls the outcome of his sufficiency of the evidence claim (ground three)—
regardless of its distinguishing factual features and despite the fact that it is a non­
controlling and nearly forty-year-old decision from Ohio’s Eighth District Court of Appeals.
The Mehozonek opinion’s merits discussion opens as follows: “An essential element of
the crime of theft is the victim’s lack of consent.” Id. at 274. The court went on to hold
that “[i]f the owner originates the criminal plan, for the purpose of testing the
trustworthiness of an employee, the courts uniformly hold that an owner by his or its
conduct has consented to the taking, and that no crime has been committed.” Id. It is
logical that evidence of consent could undermine a conviction where lack of consent is
an element of the crime at issue; but that logic does not apply here. Petitioner’s citation
to In re Winship, 397 U.S. 358 (1970), is inapposite. Lack of consent is not an element
of drug trafficking.

Court: [Y]ou certainly have the right if you want to, to hire and substitute any attorney that you
wish for Mr. Meadows. That's always your right under the laws of the United States and the
State of Ohio. [Trial counsel] is there if and only if, you still believe that you are unable to hire
and retain the services of a lawyer of your choice. I simply want to repeat that.

(Doc. 6-1, PAGEID 260-61, 262).

6

A-!S

Consistent with the foregoing, Petitioner’s Objections (Docs. 19, 23) are
OVERRULED; and the Report and Recommendations (Doc. 10) and the Supplemental
Report and

Recommendations (Doc. 22) are ADOPTED.

The

Report and

Recommendations (Doc. 18) is ADOPTED AS MODIFIED to provide for the vacating of
the Court’s prior Order (Doc. 11) adopting the initial Report and Recommendations (Doc.
10) in addition to reopening the Clerk’s Judgment (Doc. 12). The Petition (Doc. 1) is
DISMISSED with prejudice.

Because reasonable jurists would not disagree with this

conclusion, Petitioner is DENIED a certificate of appealability and the Court CERTIFIES
that any appeal would be objectively frivolous.
IT IS SO ORDERED.

/si Michael R. Barrett____________
Judge Michael R. Barrett
UNITED STATES DISTRICT JUDGE

7

M-I6

W W A'V A

W *1 A A Atf A^

FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
DARRYL TAYLOR,
Petitioner,

Case No. l :17-cv-267

- vs -

District Judge Michael R. Barrett
Magistrate Judge Michael R. Merz

TIM BUCHANAN, Warden,
Noble Correctional Institution
Respondent.

SUPPLEMENTAL REPORT AND RECOMMENDATIONS

This habeas corpus case is before the Court on Petitioner’s Objections (ECF No. 19) to the
Magistrate Judge’s Report and Recommendations recommending dismissal (ECF No. 10). Judge
Barrett has recommitted the case for reconsideration in light of the Objections (Recommittal Order,
ECF No. 20).
The Petition pleads five grounds for relief:
GROUND 1: Petitioner’s motion to suppress evidence in his case
should have been granted because of the lack of a proper search
warrant due to the insufficient probable cause and sufficiency of
the affidavit, thus, violating his Fourth Amendment of the United
States Constitution and Article 1, Section 14 of the Ohio
Constitution.
GROUND 2: The admission of evidence alleged to confirm the
first controlled buy of drugs violated the petitioner’s right against
unreasonable search and seizure under the Fourth Amendment of
the United States Constitution and Article 1, Section 14 of the
Ohio Constitution.
GROUND 3: The evidence presented at trial is insufficient to
1

A-ff

/

support petitioner’s conviction for drug trafficking, which
conviction is manifestly against the weight of the evidence, and the
defense of entrapment is established, thus, acquittal is appropriate.
GROUND 4: The petitioner was denied effective assistance of
appellate counsel when he failed to raise petitioner’s constitutional
right to have the assistance of counsel for his defense.
GROUND 5: The petitioner was denied effective assistance of
appellate counsel when he failed to raise petitioner’s constitutional
right to raise petitioner’s constitutional right to a fair trial by
impartial, indifferent jurors.
(Petition, ECF No. 1, Page ID 4, 6,11, 16 and 20.)

Grounds One and Two: Violations of the Fourth Amendment

The Report recommended that Grounds One and Two, which allege violations of the
Fourth Amendment, should be dismissed under the doctrine of Stone v. Powell, 428 U.S. 465
(1976).
Taylor begins his Objections by asserting that procedural default was raised as a defense
to his presentation of his Fourth Amendment claims. That is correct. In the Return of Writ
Respondent pointed out that because Taylor “did not challenge in the state court the legality of the
warrant and accompanying affidavit executed for the purposes of searching Taylor’s home (or an
affidavit attached to the complaint) this claim is procedurally defaulted.” (Return, ECF No. 7,
PagelD 501.)
The Report does not discuss the procedural default defense as to Grounds One and Two,
but decided these claims on the basis of Stone v. Powell, supra (Report, ECF No. 10, PagelD 526).
It is not necessary for the Court to consider the procedural default issue when the Stone v. Powell
doctrine is dispositive.
2

A-\5

Grounds Four and Five: Ineffective Assistance of Appellate Counsel

In his Fourth and Fifth Grounds for Relief,1 Taylor asserts he was deprived of his Sixth
Amendment right to the effective assistance of counsel (IV) “when he failed to raise Petitioner’s
right to have assistance of counsel for his defense” (PagelD 16); and (V) “when he failed to raise
Petitioner’s constitutional right to a fair trial by impartial, indifferent jurors” (PagelD 20). The
Report recommended dismissing these two Grounds as barred by Taylor’s procedural default in
presenting them to the state courts (Report, ECF No. 10, PagelD 541).
The only method Ohio recognizes for raising an ineffective assistance of appellate counsel
claim is by Application to Reopen the appeal under Ohio R. App. P. 26(B). The Fourth District
Court of Appeals refused to reach the merits of Taylor’s ineffective assistance of appellate counsel
claims because he failed in several respects to comply with the procedural requirements of that

t.

■

rule (see relevant portions of that court’s decision quoted at Report, ECF No. 10, PagelD 538-40).
Noting that a federal habeas court is bound by state court interpretation of state law, Taylor
argues, “[t]he Ohio Supreme Court has held that a Rule 26(B) application is not part of the direct
appeal process and, therefore, its denial cannot be construed as an estoppel to a full and fanopportunity to litigate a claim.” (Objections, ECF No. 19, PagelD 577, citing State v. Davis, 119
Ohio St. 3d 422 (2008).) That is a misreading of Davis where the syllabus rule is “[t]he filing of
a motion seeking a discretionary appeal in this court does not create a bar to a merit ruling on a
timely filed application to reopen an appeal claiming ineffective assistance of appellate counsel

1 In the Petition, Taylor has two separate grounds labeled “IV.” The second of these, beginning on PagelD 16, is the
claim analyzed here and in the Report as Ground Four.

3

under App.R. 26(B).” The Davis court then remanded the case for a ruling on the merits of the
26(B) application, holding that dismissing the 26(B) on the basis of res judicata was in error.
Nothing of the sort is involved here. The Fourth District dismissed the 26(B) application for failure
to comply with procedural portions of 26(B) itself, and not on res judicata grounds.
Taylor also asserts the procedural portions of the Rule “have never been strictly enforced.”
(Objections, ECF No. 19, PagelD 578.) In support, however, he cites three cases from the Ohio
Eighth District Court of Appeals. None of those precedents is binding on the Fourth District.
Moreover, the most recent of those cases, State v. Hubbard, 2016-Ohio-918, 2016 Ohio App.
LEXIS 943 (8th Dist. Mar. 9, 2016), the court enforced the ninety-day deadline for filing. The
language relied on by Taylor is in Judge Kilbane’s dissent, not the majority opinion. See Hubbard
at f 18. It is worth noting, too, that the Ohio Supreme Court has enforced the 90-day deadline set
in 26(B), finding it a “reasonable procedural requirement.” State v. Gumm, 103 Ohio St.3d 162,
163, 2004-Ohio-4755

7-8 (2004); see also, State v. Lamar, 102 Ohio St.3d 467,467-68 2004-

Ohio-39761fl| 3-9 (2004); State v. Cooey, 73 Ohio St.3d 411,412, 1995-Ohio-328 (1995); State v.
Elkins, 74 Ohio St.3d 9, 10, 1995-Ohio-250 (1995).
State procedural rules bar federal habeas corpus review only if the rules are “firmly
established and regularly followed.” Walker v. Martin, 562 U.S. 307, 316 (2011); James v.
Kentucky, 466 U.S. 341, 348-49 (1984); Ford v. Georgia, 498 U.S. 411, 423-24 (1991); Barr v.
City of Columbia, 378 U.S. 146 (1964); Rogers v. Howes, 144 F.3d 990 (6th Cir. 1998); Jones v.
Toombs, 125 F.3d 945, 946-47 (6th Cir. 1997). A procedural rule need not be followed in every
case; it is sufficient if it is applied in the vast majority of cases. Byrd v. Collins, 209 F.3d 486,521
(6th Cir. 2000), citing Dugger v. Adams, 489 U.S. 401, 410 n. 6 (1989). “[Ajn occasional act of
grace by a state court in excusing or disregarding a state procedural rule does not render the rule

4

A''20

inadequate.” Coleman v. Mitchell (Storey murder), 268 F.3d 417, 429 (6th Cir. 2001), quoting
Amos v. Scott, 61 F.3d 333,342 (5th Cir. 1995). “[A] discretionary state procedural rule can serve
as an adequate ground to bar federal habeas review.” Beard v. Kindler, 558 U.S. 53 (2009).
A petitioner must show more than an occasional act of grace by a state court by a state
court in excusing or disregarding a state procedural rule for a federal court to conclude that the
state procedural rule is inadequate because it is inconsistently applied. Hutchison v. Bell, 303 F.3d
720, 737 (6th Cir. 2002),citing Coleman v. Mitchell, 268 F.3d 417, 429 (6th Cir. 2001).
Here the portions of Rule 26(B) relied on by the Fourth District are part of the Rule as
adopted by the Ohio Supreme Court. They are not unique to the Fourth District or somehow
invented for this case alone. They serve the legitimate state interest of ensuring applications to
reopen are properly supported and of obtaining finality of criminal judgments.
The Objections spend several pages discussing supposed cause and prejudice to excuse the
procedural default (ECF No. 19, PagelD 579-83). However, none of this discussion is directed to
reasons why his 26(B) Application was improper as to form. Instead, he discusses the trial judge’s
hostile attitude about his claim of conflict of interest on the part of his trial attorney. The prejudice
portion of this part of the Objections discusses prejudice arising from trial counsel’s failure to
move to suppress certain evidence. But that is not what is as issue on the Fourth and Fifth Grounds
for Relief, which are directed to claims of ineffective assistance of appellate counsel.

Ground Three: Insufficiency of the Evidence

In his Third Ground for Relief, Taylor claims he was convicted on insufficient evidence.
The Report concluded the Fourth District had thoroughly considered this claim under the relevant

5

Mi

federal standard provided by Jackson v. Virginia, 443 U.S. 307 (1979), and its conclusion was
entitled to deference under the AEDPA (Report, ECF No. 10, PagelD 536).
Taylor objects that the State failed to produce evidence sufficient to support a finding that
his sale of drugs took place within one hundred feet of a juvenile. Taylor asserts the State was
required “to present some sort of recording establishing this allegation beyond a reasonable doubt.”
(Objections, ECF No. 19, PagelD 584.) The Fourth District’s opinion recounts the eyewitness
testimony of the confidential informant about age, gender, appearance, and proximity. State v.
Taylor, 2016 Ohio App. LEXIS 1644, ^ 27 (4th Dist. Apr. 27,2016). The Fourteenth Amendment
does not require recorded corroboration.
Taylor concludes his Objections by asserting that his buyers consented to buy the drugs
and consent is a defense (Objections, ECF No. 19, PagelD 584-85, citing State v. Mehozonek, 8
Ohio App. 3d 271 (8th Dist. 1983)). In that case the appellate court dismissed an indictment against
several security guards for facilitating theft when in fact no theft had occurred. The case in no
way suggests that consent is a defense to a drug trafficking charge.

Conclusion

Having reconsidered the case in light of the Objections, the Magistrate Judge again
concludes it should be dismissed with prejudice. Because reasonable jurists would not disagree
with this conclusion, Petitioner should be denied a certificate of appealability and the Court should
certify to the Sixth Circuit that any appeal would be objectively frivolous and therefore should not

6

A-22

be permitted to proceed in forma pauperis.

July 24, 2018.
s/ MicfiaeC JL Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS

t-

'

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Pursuant to Fed. R. Civ. P. 6(d), this period is extended to seventeen days
because this Report is being served by mail. Such objections shall specify the portions of the
Report objected to and shall be accompanied by a memorandum of law in support of the objections.
If the Report and Recommendations are based in whole or in part upon matters occurring of record
at an oral hearing, the objecting party shall promptly arrange for the transcription of the record, or
such portions of it as all parties may agree upon or the Magistrate Judge deems sufficient, unless
the assigned District Judge otherwise directs. A party may respond to another party’s objections
within fourteen days after being served with a copy thereof. Failure to make objections in
accordance with this procedure may forfeit rights on appeal. See United States v. Walters, 638 F.2d
947, 949-50 (6th Cir. 1981); Thomas v. Am, 474 U.S. 140,153-55 (1985).

7

A-23

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
DARRYL TAYLOR,
Petitioner,

:

- vs -

Case No. 1; 17-cv-267
District Judge Michael R. Barrett
Magistrate Judge Michael R. Merz

TIM BUCHANAN, Warden,
Noble Correctional Institution
Respondent.

RECOMMITTAL ORDER

This case: is before the Court on Petitioner’s Objections (ECF No. 10) to the Magistrate
Judge’s Report and Recommendations (ECF No. 10).
The District Judge has preliminarily considered the Objections and believes they will be
more appropriately resolved after further analysis by the Magistrate Judge. Accordingly, pursuant
to Fed. R. Civ. P. 72(b)(3), this matter is hereby returned to the Magistrate Judge with instructions
to file a supplemental report analyzing the Objections and making recommendations based on that
analysis.
July

2018.
Michael R. Barrett
United States District Judge

1

>
T

\

s

?

.

r-i?V:r‘

.1.'

■!

+

v .
y

•M

v

• K

•J?

t.

\»r

P

;

JV

-•

•■•r.

...r.
h

V.

:r

i

.r-'*'. ’rir. v

/•

t

r.i:

5\

.4-

*\

sf

;v

J

.;rr

i

' : -:7C

y.

I-'.-

v

K

V•

v-

:

{

- v »r« ,

< •*-

ir.

\

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
DARRYL TAYLOR,
Petitioner,

Case No. l:17-cv-267

- vs -

District Judge Michael R. Barrett
Magistrate Judge Michael R. Merz

TIM BUCHANAN, Warden,,
Noble Correctional Institution
Respondent.

REPORT AND RECOMMENDATIONS

This is a habeas corpus case brought pro se by Petitioner Darryl Taylor to obtain relief
from his conviction for drug trafficking in the Lawrence County, Ohio, Court of Common Pleas
(Petition, ECFNo. 1).

Procedural History

Taylor was indicted by the Lawrence County grand jury on September 24, 2014, and
charged with trafficking oxycodone in the presence of juveniles, three other drug felonies, and a
firearm specification. After his motion to suppress evidence obtained by a confidential informant
was denied, he was tried to a jury and convicted on all charges except the firearm specification.
He was then sentenced to thirteen years of imprisonment, the term he is now serving.
Taylor appealed to the Ohio Fourth District Court of Appeals which affirmed except for
failure to advise of a mandatory term of post-release control. State v. Taylor, 2016 Ohio App.
1

A-25

I

, '

\

?

",r
i,

: k

i

‘i

:»

j

*

. ;mv

. L.

•f

> < *o. 'Vt,.'-• r ;r.y

.Ji

' ,'.C V !

j

•if.

r

*

y-yno./ •
*•

■ .7:'-'; ,<

!

i• '

:

5

r

fti i’’ ' 7#

M'-

M; \J

y.

M* :

.. L' ■

;»

■

r

u

•'• 'M •

\ -

:!jj

. rf

rt •

f

/

* i? '■

r

i

'»>

vy i \h

r

f >

:

>

r.

•r*

V*

:‘0:

l\ . i.’

,V,

i. ■

.• :

i'. iI- :•'

,1ii/

!

/<)

1

l|

;

■;

<

:

;

•r

>. I.

V

i

i-f'C-J.-i

■

:'V

;

r i

i'*?

'JCA

•*

i

f*s.

>' "f-q

V

■■

?.

v

i .<

y-i

;i
i

■

’> ■

Ji.

tr'

H‘

;;f: v •:"•AAcl.'-j'ii:;:

i

;

■..! i!'i

•

.1'

a..

:

:

v.

a.

i-\ ■' X-fS if

a

•V . /

i

• f

*

\

;rv.

5 (

\

l

LEXIS 1644 (4th Dist. Apr. 27,2016), appellate jurisdiction declined, 147 Ohio St. 3d 1446 (2016).
Taylor moved to reopen his appeal to raise claims of ineffective assistance of appellate counsel
(State Court Record, ECF No. 6, PagelD 164). The Fourth District declined to reach the merits of
the application, concluding Taylor had failed to properly present his claims. State v. Taylor, Case
No. 15 CA 12 (4th Dist. Aug. 30,2016)(unreported; copy at State Court Record, ECF No. 6, PagelD
179-82). Taylor unsuccessfully sought review in the Ohio Supreme Court. State v. Taylor, 147
Ohio St. 3d 1446 (2016).
At the time the Return of Writ was filed, Taylor had a pending appeal from his
resentencing. That case does not involve any issue presented here, so the exhaustion doctrine does
not prevent this Court from proceeding.
Taylor filed his Petition in this Court on April 5,2017, pleading the following grounds for
relief:
GROUND 1: Petitioner’s motion to suppress evidence in his case
should have been granted because of the lack of a proper search
warrant due to the insufficient probable cause and sufficiency of the
affidavit, thus, violating his Fourth Amendment of the United States
Constitution and Article 1, Section 14 of the Ohio Constitution.
GROUND 2: The admission of evidence alleged to confirm the first
controlled buy of drugs violated the petitioner’s right against
unreasonable search and seizure under the Fourth Amendment of the
United States Constitution and Article 1, Section 14 of the Ohio
Constitution.
GROUND 3: The evidence presented at trial is insufficient to
support petitioner’s conviction for drug trafficking, which
conviction is manifestly against the weight of the evidence, and the
defense of entrapment is established, thus, acquittal is appropriate.
GROUND 4: The petitioner was denied effective assistance of
appellate counsel when he failed to raise petitioner’s constitutional
right to have the assistance of counsel for his defense.

2

A'3.6

„ i

A

y

*

:

•i •: :ir

•-

...ft

i

*

!

f *. v

l

*

T;

•

o,.' '
■*p-

?n. ju

• .c. '

!

. • \ •' 1

C -

.

j :rV-

,’m;

■■

i- \

/

’• ...

;

. J

l i.

;■

•4.:

. i

*: }

v

.A11

; \
.-l

m
■■■.

v.r
T;i

;

>/'.*

A*

• *

•‘■I

i’y ■■

-v;

r:

' .J:,

i * u{

; **£

•r ; or - 0 / ;

• {

.

•

' •*

t

r‘ .O:

i*.

'/ • ; ' :

;i

;

i

t

i

■*

: .

v-

l

!:
••

;*•

.ii

i

?

]

,;

'? r

! :.y<

. •» t;«c % •«:.

■'>y.

;• V.

r, i .

Ik<j

f

\

*

\
>

'■,

GROUND 5: The petitioner was denied effective assistance of
appellate counsel when he failed to raise petitioner’s constitutional
right to raise petitioner’s constitutional right to a fair trial by
impartial, indifferent jurors.
(Petition, ECF No. 1, Page ID # 4, 6,11,16 and 20).

Analysis

Grounds One and Two: Violations of the Fourth Amendment

In his first two grounds for relief, Taylor alleges his Fourth Amendment rights were
violated by the admission of evidence obtained from him in that the first controlled buy of drugs
was an unreasonable search and the subsequent search of his home was performed in execution of
a search warrant which was not supported by probable cause.
Although the State asserts a procedural default defense to these two grounds, a more
fundamental problem, also raised by Respondent, is that they are not cognizable in habeas corpus.
Federal habeas corpus relief is not available to state prisoners who allege they were convicted on
illegally seized evidence if they were given a full and fair opportunity to litigate that question in
the state courts. Stone v. Powell, 428 U.S. 465,494-95 (1976). Stone requires the district court to
determine whether state procedure in the abstract provides frill and fair opportunity to litigate, and
Ohio procedure does. The district court must also decide if a Petitioner's presentation of claim
was frustrated because of a failure of the state mechanism. Habeas relief is allowed if an
unanticipated and unforeseeable application of a procedural rule prevents state court consideration

3

A<2?

V

».

i

:

?

"i

I

i

]

K,

i: '

. ' i

c

5 •

<

i. >■ i

x: •; V

■KA

t

•f •
i

!

i~

t"

f

•. :

■

fO. *

}

V r

; r

.*
1

■ a

' i

x

A' '•

,'L
■ • x

I,.;

‘. • r

;

•'*.

?

J-

‘ At

j

r.
■

{:.*.■

-

-Tv:

; x.

jv

i

L 1

.i: u.i
f *\y:

Af.j; ’•••

l

•;;< 5'.A : ;

i'

•>
fv-;--::
•

‘

-

.‘S'-,..

i;

r •;

•

!
»V

. «- •
I ••

iy-v k* a

r;

i;-

:

i-

*

•v

•’a

K

I

K

.-i

*.

:■

?

f

,x

Jr:

,j

: I'AUi .V

of merits. Riley v. Gray, 674 F.2d 522 (6th Cir. 1982). The Riley court, in discussing the concept
of a “full and fair opportunity,” held:
The mechanism provided by the State of Ohio for resolution of
Fourth Amendment claims is, in the abstract, clearly adequate. Ohio
R. Crim. P. 12 provides an adequate opportunity to raise Fourth
Amendment claims in the context of a pretrial motion to suppress,
as is evident in the petitioner’s use of that procedure. Further, a
criminal defendant, who has unsuccessfully sought to suppress
evidence, may take a direct appeal of that order, as of right, by filing
a notice of appeal. See Ohio R. App. P. 3(A) and Ohio R. App. P.
5(A). These rules provide an adequate procedural mechanism for the
litigation of Fourth Amendment claims because the state affords a
litigant an opportunity to raise his claims in a fact-finding hearing
and on direct appeal of an unfavorable decision.
Id. at 526.
In his Reply to the Return of Writ, Taylor asserts he did not get a full and fair opportunity
to litigate his Fourth Amendment claims because the Common Pleas Court failed to hold a
suppression hearing (ECF No. 8, PagelD 517). He notes that his attorney filed a motion to suppress
(State Court Record, ECF No. 6, PagelD 43-44). In the decision on that motion, the trial judge
wrote as an introductory paragraph, “Defendant’s motion to suppress came on for hearing before
the Court with the Defendant, Defense Counsel and Prosecuting Attorney present and before the
Court.” Id. at PagelD 47. Taylor claims this is a “bold fabrication. Petitioner avers that he
attended no such hearing, and a search of the record providefs] no transcript depicting the same.”
(Response, ECF No. 8, PagelD 517.)
Taylor is correct that the State Court Record does not included any transcript of a
suppression hearing. Taylor claims this violates the Court Reporter Act, 28 U.S.C. § 753(b), but
that statute only applies to the recording of proceedings in federal courts. It is likely, instead, that

4

the opening language of the trial judge’s decision is merely formal language indicating when the
motion to suppress was ready for decision. Taylor’s counsel did not ask for a hearing on the
motion and it appears the issues were well known from the briefs; indeed, Judge Cooper states
“[b]oth State and Defendant briefed the arguments of law and submitted them to the Court.”
(Judgment Entry, State Court Record, ECF No. 6, PagelD 47.) The absence of a transcript of any
suppression hearing, if in fact one took place, did not prevent the Fourth District from thoroughly
considering Taylor’s second assignment of error, which challenged only the audio-video recording
made by the confidential informant on the first controlled buy, and made no challenge of the search
warrant. State v. Taylor, supra,

29-38.

In Good v. Berghuis, 729 F.3d 636 (6th Cir. 2013), the Sixth Circuit held an evidentiary
hearing was not required by due process and followed its prior conclusion that “opportunity means
opportunity ... the state court need do no more than ‘take cognizance of the constitutional claim
and render a decision in light thereof.” Id. at 638, quoting Moore v. Cowan, 560 F.2d 1298,1302
(6th Cir. 1977).
Consistent with Moore and with two of the three votes in Bradley
[v. Cowan, 561 F.2d 1213 (1977)], we make clear that the [Stone v.]
Powell[, 428 U.S. 465 (1976)] "opportunity for full and fair
consideration" means an available avenue for the prisoner to present
his claim to the state courts, not an inquiry into the adequacy of the
procedure actually used to resolve that particular claim.
Id. at 639.
Because Taylor was given a full and fair opportunity to litigate his Fourth Amendment
claims, his first two grounds for relief are not cognizable in habeas corpus and should be dismissed.

Ground Three: Sufficiency of the Evidence
5

A-2<\

In his Third Ground for Relief, Taylor asserts that he was convicted on insufficient
evidence. Taylor presented this claim on direct appeal to the Fourth District, along with a manifest
weight claim that is not cognizable in habeas corpus. That court decided the claim as follows:
A. Drug Convictions: Sufficiency and Manifest Weight of the
Evidence
[*P12] Taylor contends that his convictions for trafficking in
oxycodone and trafficking in oxycodone in the presence ofjuveniles
are not supported by sufficient evidence and are against the manifest
weight of the evidence. "When a court reviews a record for
sufficiency, '[t]he relevant inquiry is whether, after viewing the
evidence in a light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime
proven beyond a reasonable doubt."' State v. Maxwell, 139 Ohio
St.3d 12, 2014-0hio-1019, 9 N.E.3d 930, ^ 146, quoting State v.
Jenks, 61 Ohio St.3d 259, 574 N.E.2d 492 (1991), paragraph two of
the syllabus; Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979). That analysis does not include a weighing of
the evidence or witness credibility. See State v. Tolbert, 4th Dist.
Washington No. 15CA5, 2015-Ohio-4733. It simply determines
whether the evidence, if believed, would support a conviction. But
the weight and credibility of evidence are to be determined by the
trier of fact. State v. Kirkland, 140 Ohio St.3d 73, 2014-Ohio-1966,
15 N.E.3d 818, H 132. "A jury, sitting as the trier of fact, is free to
believe all, part or none of the testimony of any witness who appears
before it." State v. West, 4th Dist. Scioto No. 12CA3507, 2014Ohio-1941, T1 23. We defer to the trier of fact on these evidentiary
weight and credibility issues because it is in the best position to
gauge the witnesses' demeanor, gestures, and voice inflections, and
to use these observations to weigh their credibility. Id.
[*P13] In determining whether a criminal conviction is against the
manifest weight of the evidence, an appellate court must review the
entire record, weigh the evidence and all reasonable inferences,
consider the credibility of witnesses, and determine whether, in
resolving conflicts in the evidence, the trier of fact clearly lost its
way and created such a manifest miscarriage of justice that the
conviction must be reversed. State v. Thompkins, 78 Ohio St.3d 380,
387, 1997 Ohio 52, 678 N.E.2d 541 (1997); State v. Hunter, 131
Ohio St.3d 67, 2011-Ohio-6254, 960 N.E.2d 955, H 119. "Although
a court of appeals may determine that a judgment of a trial court is
sustained by sufficient evidence, that court may nevertheless
6

A-30

conclude that the judgment is against the weight of the evidence."
Thompkins at 387.
[*P14] We review Taylor's implicit challenge to the jury's rejection
of his affirmative defense of entrapment under the manifest weight
of the evidence standard. The sufficiency-of-the-evidence standard
is inapplicable when a defendant raises an affirmative defense as
justification for the crime because such a defense admits the facts
that amount to a violation but interposes a justification for the
otherwise illegal conduct. See State v. Bundy, 2012-Ohio-3934, 974
N.E.2d 139, 1)30-31 (4th Dist.) We do, however, find entrapment
cognizable under a manifest-weight-of-the evidence standard.
[■"PIS] The jury convicted Taylor of trafficking in oxycodone. R.C.
2925.03(A) sets forth the essential elements of drug trafficking: "No
person shall knowingly do any of the following: (1) Sell or offer to
sell a controlled substance or a controlled substance analog. * * *n
[*P16] Taylor claims that his drug convictions are against the
manifest weight of the evidence because "[tjhere is simply no
evidence that [he] independently formed the intent to sell or offer to
sell oxycodone as charged in the indictment." We construe this
statement to imply he was entitled to an acquittal based upon
entrapment. In other words, he claims the genesis of the crimes
originated with the state and not him. The trial court gave the jury
an instruction on entrapment, but the jury rejected Taylor's
entrapment defense and found him guilty on all the trafficking
offenses.
[*P17] By raising an entrapment defense, the defendant admits that
he committed the offense but seeks to avoid criminal liability for his
conduct. State v. Doran, 5 Ohio St.3d 187, 193, 5 Ohio B. 404, 449
N.E.2d 1295 (1983); State v. Pack, 4th Dist. Athens No. 09CA26,
2009-0hio-6960, If 9-12. The Supreme Court of Ohio defines
entrapment under a subjective test that focuses on the defendant's
predisposition to commit an offense. Doran at 191. "[Entrapment
is established where the criminal design originates with the officials
of the government, and they implant in the mind of an innocent
person the disposition to commit the alleged offense and induce its
commission in order to prosecute." Id. at paragraph one of the
syllabus. The defense is available "when the government acts, under
a prearranged agreement, through an 'active government informer,'
whether paid or not." State v. Klapka, 11th Dist. Lake No. 2003-L044, 2004-0hio-2921, 1) 29, citing Sherman v. United States, 356
U.S. 369, 373-374, 78 S.Ct. 819, 2 L.Ed.2d 848 (1958). "However,
entrapment is not established when government officials 'merely
7

A3\

afford opportunities or facilities for the commission of the offense'
and it is shown that the accused was predisposed to commit the
offense." Doran at 192, 449 N.E.2d 1295, quoting Sherman 356
U.S. at 372.
[*P18] To assist in determining predisposition, the Doran court
advanced a nonexclusive list of relevant factors: "(1) the accused's
previous involvement in criminal activity of the nature charged, (2)
the accused's ready acquiescence to the inducements offered by the
police, (3) the accused's expert knowledge in the area of the criminal
activity charged, (4) the accused's ready access to contraband, and
(5) the accused's willingness to involve himself in criminal activity."
Doran, 5 Ohio St.3d at 192.
[*P19] Because entrapment is an affirmative defense, the defendant
has the burden of going forward, as well as the burden of proving
the defense by a preponderance of the evidence. Id. at paragraph two
of the syllabus; R.C. 2901.05(A). Thus the defendant asserting an
entrapment defense must adduce evidence supporting his lack of
predisposition. Doran at 193. The Supreme Court of Ohio has found
this requirement fair:
The accused, as a participant in the commission of the
crime, will be aware of the circumstances surrounding the
crime, and is at no disadvantage in relaying to the fact­
finder his version of the crime as well as the reasons he was
not predisposed to commit the crime. Moreover, the
accused will certainly be aware of his previous
involvement in crimes of a similar nature which may tend
to refute the accused's claim that he was not predisposed to
commit the offense. In summary, none of the evidence
which is likely to be produced on the issue of
predisposition would be beyond the knowledge of the
accused or his ability to produce such evidence.
Id.
[*P20] The record confirms that Taylor failed to carry his burden to
establish the entrapment defense. First, Taylor failed to adduce any
evidence that the criminal design in this case originated with a
government agent. The Director of the Lawrence County Drug Task
Force testified that they received information that Taylor was
involved in trafficking in drugs from persons who said they were
able to purchase drugs from Taylor. As a result, the Task Force
began an investigation of Taylor.
[*P21] The confidential informant testified that prior to making any
buys from Taylor, Taylor set up a meeting with her in which he told
8

A 32

her "how we were going to do things." She testified that Taylor told
her, "we were never going to talk on the phone. He's never going to
hand me the pills and I couldn't get under ten [pills]." The Director
also testified that the price that Taylor sold the oxycodone tablets to
the informant, $30 per tablet, was indicative of his level of
significance in the drug trafficking trade. Taylor's price was lower
than that typically sold at the street level, indicating that Taylor is
higher up on the drug trafficking chain. After officers searched
Taylor's residence, they found an additional nineteen 30 mg
oxycodone tablets, a number of small plastic baggies, nine hundred
and thirty dollars in cash, a bill counter and a counterfeit bill
detector. One of the officers testified that the evidence seized from
the search showed that Taylor was involved in drug trafficking.
[*P22] Taylor presented no evidence that the criminal design for the
trafficking offenses originated with the government or that a
government agent implanted in his mind the disposition to commit
these offenses. Thus, the jury's finding that he failed in his burden
to prove entrapment was not against the manifest weight of the
evidence.
[*P23] Trafficking under R.C. 2925.03(A)(1) requires an intent to
sell and trafficking under R.C. 2925.03(A)(2) requires that the
offender must know that the substance is intended for sale, but the
sale can be made by a person other than the offender. State v.
Cabrales, 118 Ohio St.3d 54, 2008-0hio-1625, 886 N.E.2d 181, H
29, 32. Here, the state proved that Taylor did more than just intend
to sell, he actually knowingly sold oxycodone to the confidential
informant. "A person acts knowingly, regardless of his purpose,
when he is aware that his conduct will probably cause a certain result
or will probably be of a certain nature. A person has knowledge of
circumstances when he is aware that such circumstances probably
exist." R.C. 2901.22(B).
[*P24] The state introduced evidence that Taylor met with the
confidential informant the day before the first controlled buy and
instructed her of the protocol she must follow to purchase
oxycodone from him. Several investigators and the confidential
informant testified about the three controlled buys and the jury saw
the audio-visual recordings of the three sales. The state also
presented photographs and testimony concerning the drugs and
money recovered in the search of Taylor's home, as well as the
testimony and laboratory report of a forensic scientist with the
Bureau of Criminal Investigation who testified that she analyzed the
tablets Taylor sold and those found in the search and determined that
they were 30 mg oxycodone tablets. The state presented testimony
9

A-a

that the bulk amount of oxycodone is 450 milligrams and that each
of Taylor's three sales as well as the amount found in his house
during the search met or exceeded the bulk amount. R.C.
2925.01(D)(1)(d).
[*P25] On the charge that the trafficking occurred in the presence of
juveniles, Taylor claims that the informant "identified two of Mr.
Taylor's children playing in the yard at the time of the September 9,
2014 transaction, yet she was unable to provide either their names
or physical descriptions with any certainty and the video was
inconclusive — casting significant doubt on the first count of the
indictment."
[*P26] The state presented sufficient evidence that drug trafficking
occurred in the presence of juveniles. Under R.C.
2915.03(A)( 1 )(C)( 1 )(c), "if the offense was committed in the
vicinity of a school or in the vicinity of a juvenile, aggravated
trafficking in drugs is a felony of the second degree, and the court
shall impose as a mandatory prison term one of the prison terms
prescribed for a felony of the second degree." An offense is
"committed in the vicinity of a juvenile" if an offender (1) commits
the offense within one hundred feet of a juvenile, or (2) within the
view of ajuvenile. R.C. 2925.01(BB). A "juvenile" is a person under
18 years of age. R.C. 2925.01 (N).
[*P27] The confidential informant gave sufficient testimony to
establish that there were juveniles present within 100 feet of the
controlled buys, even though on cross-examination she was unclear
about some of the details. She testified that she personally knows
Taylor's children who are both under the age of 18. She identified
their gender, race, and ages, and was fairly certain of both of their
names and she stated that they were about 20 feet away from her
when she purchased the oxycodone. On cross examination she
testified that she was certain of one of the child's name, but less
certain of the other’s. She also stated that she was no longer certain
if they had long or short hair because it had been ten months since
she saw them during the first controlled buy and it was possible that
they had cut or grown out their hair. The confidential informant's
testimony provided sufficient evidence that juveniles were within
100 feet of the first controlled buy. The state need not prove details
about the children's hair length ten months later or identify them by
name to prove that juveniles were present.
[*P28] Based on this substantial, credible evidence, the jury
properly found the essential elements of these crimes proven beyond
a reasonable doubt and did not clearly lose its way or create a
10

AM

manifest miscarriage of justice so as to warrant a reversal. We
overrule Taylor's first assignment of error.
State v. Taylor, supra.
When a state court decides on the merits a federal constitutional claim later presented to a
federal habeas court, the federal court must defer to the state court decision unless that decision is
contrary to or an objectively unreasonable application of clearly established precedent of the
United States Supreme Court. 28 U.S.C. § 2254(d)(1); Harrington v. Richter, 562 U.S. 86, 131 S.
Ct. 770, 785 (2011); Brown v. Payton, 544 U.S. 133,140 (2005); Bell v. Cone, 535 U.S. 685, 69394 (2002); Williams (Terry) v. Taylor, 529 U.S. 362, 379 (2000).
An allegation that a verdict was entered upon insufficient evidence states a claim under the
Due Process Clause of the Fourteenth Amendment to the United States Constitution. Jackson v.
Virginia, 443 U.S. 307 (1979); In re Winship, 397 U.S. 358 (1970); Johnson v. Coyle, 200 F.3d
987, 991 (6th Cir. 2000); Bagby v. Sowders, 894 F.2d 792, 794 (6th Cir. 1990)(en banc). In order
for a conviction to be constitutionally sound, every element of the crime must be proved beyond a
reasonable doubt. In re Winship, 397 U.S. at 364.
[T]he relevant question is whether, after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a
reasonable doubt.... This familiar standard gives full play to the
responsibility of the trier of fact fairly to resolve conflicts in the
testimony, to weigh the evidence and to draw reasonable inferences
from basic facts to ultimate facts.
Jackson v. Virginia, 443 U.S. at 319', United States v. Paige, 470 F.3d 603, 608 (6th Cir. 2006);
United States v. Somerset, 2007 U.S. Dist. LEXIS 76699 (S.D. Ohio Oct. 12,2007). This rule was
recognized in Ohio law at State v. Jenks, 61 Ohio St. 3d 259 (1991). Of course, it is state law
which determines the elements of offenses; but once the state has adopted the elements, it must
11

A'3S

/" 'I
/

then prove each of them beyond a reasonable doubt. In re Winship, supra.
In cases such as Petitioner’s challenging the sufficiency of the evidence and filed after
enactment of the Antiterrorism and Effective Death Penalty Act of 1996 (Pub. L. No 104-132,110
Stat. 1214)(the “AEDPA”), two levels of deference to state decisions are required:
In an appeal from a denial of habeas relief, in which a petitioner
challenges the constitutional sufficiency of the evidence used to
convict him, we are thus bound by two layers of deference to groups
who might view facts differently than we would. First, as in all
sufficiency-of-the-evidence challenges, we must determine
whether, viewing the trial testimony and exhibits in the light most
favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.
See Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781, 61 L. Ed.
2d 560 (1979). In doing so, we do not reweigh the evidence, re­
evaluate the credibility of witnesses, or substitute our judgment for
that of the jury. See United States v. Hilliard, 11 F.3d 618, 620 (6th
Cir. 1993). Thus, even though we might have not voted to convict a
defendant had we participated injury deliberations, we must uphold
the jury verdict if any rational trier of fact could have found the
defendant guilty after resolving all disputes in favor of the
prosecution. Second, even were we to conclude that a rational trier
of fact could not have found a petitioner guilty beyond a reasonable
doubt, on habeas review, we must still defer to the state appellate
court's sufficiency determination as long as it is not unreasonable.
See 28 U.S.C. § 2254(d)(2).
Brown v. Konteh, 567 F.3d 191, 204-5 (6th Cir. 2009). In a sufficiency of the evidence habeas
corpus case, deference should be given to the trier-of-fact's verdict under Jackson v. Virginia and
then to the appellate court's consideration of that verdict, as commanded by AEDPA. Tucker v.
Palmer, 541 F.3d 652 (6th Cir. 2008); accord Davis v. Lajler, 658 F.3d 525, 531 (6th Cir. 201 l)(en
banc); Parker v. Matthews, 567 U.S. 37, 43 (2012). Notably, “a court may sustain a conviction
based upon nothing more than circumstantial evidence.” Stewart v. Wolfenbarger, 595 F.3d 647,
656(6* Cir. 2010).
We have made clear that Jackson claims face a high bar in federal
habeas proceedings because they are subject to two layers ofjudicial
12

A'ih

Case: l:17-cv-00267-MRB-MRM Doc #: 10 Filed: 05/17/18 Page: 13 of 19 PAGEID #: 536

deference. First, on direct appeal, "it is the responsibility of the jury
— not the court — to decide what conclusions should be drawn from
evidence admitted at trial. A reviewing court may set aside the jury's
verdict on the ground of insufficient evidence only if no rational trier
of fact could have agreed with the jury." Cavazos v. Smith, 565 U.
S. 1,__ , 132 S.Ct. 2, 181 L. Ed. 2d 311, 313 (2011) (per curiam).
And second, on habeas review, "a federal court may not overturn a
state court decision rejecting a sufficiency of the evidence challenge
simply because the federal court disagrees with the state court. The
federal court instead may do so only if the state court decision was
'objectively unreasonable.'" Ibid, (quoting Renico v. Lett, 559 U. S.
__ , 130 S.Ct. 1855, 176 L. Ed. 2d 678 (2010)).
Coleman v. Johnson, 566 U.S. 650, 651 (2012)(per curiam); Parker v. Matthews, 567 U.S. 37, 43
(2012) (per curiam).
On direct appeal-the Fourth District thoroughly considered the evidence presented at trial,
including that given on the entrapment defense. It applied the correct legal standard enunciated in
Jackson v. Virginia, 443 U.S. 307 (1979). Its application of the Jackson standard is not objectively
unreasonable and is therefore entitled to deference under 28 U.S.C. § 2254(d). Taylor’s Third
Ground for Relief should therefore be dismissed.

Grounds Four and Five: Ineffective Assistance of Appellate Counsel

In his Fourth and Fifth Grounds for Relief, Taylor asserts he was deprive of his Sixth
Amendment right to the effective assistance of counsel in several ways. Respondent claims that
review of these claims in habeas is barred by Taylor’s procedural default in presenting them to the
state courts (Return, ECF No. 7, PagelD 511-12).
The procedural default doctrine in habeas corpus is described by the Supreme Court as
follows:

13

A 31

Case: l:17-cv-00267-MRB-MRM Doc #: 10 Filed: 05/17/18 Page: 14 of 19 PAGEID #: 537

In all cases in which a state prisoner has defaulted his federal claims
in state court pursuant to an adequate and independent state
procedural rule, federal habeas review of the claims is barred unless
the prisoner can demonstrate cause of the default and actual
prejudice as a result of the alleged violation of federal law; or
demonstrate that failure to consider the claims will result in a
fundamental miscarriage of justice.
Coleman v. Thompson, 501 U.S. 722, 750 (1991); see also Simpson v. Jones, 238 F.3d 399, 406
(6th Cir. 2000). That is, a petitioner may not raise on federal habeas a federal constitutional rights
claim he could not raise in state court because of procedural default. Wainwright v. Sykes, 433
U.S. 72 (1977); Engle v. Isaac, 456 U.S. 107, 110 (1982). Absent cause and prejudice, a federal
habeas petitioner who fails to comply with a State’s rules of procedure waives his right to federal
habeas corpus review. Boyle v. Million, 201 F.3d 711, 716 (6th Cir. 2000)(citation omitted);
Murray v. Carrier, All U.S. 478,485 (1986); Engle, 456 U.S. at 110; Wainwright, 433 U.S. at 87.
[A] federal court may not review federal claims that were
procedurally defaulted in state court—that is, claims that the state
court denied based on an adequate and independent state procedural
rule. E.g., Beard v. Kindler, 558 U.S. 53, 55, 130 S.Ct. 612, 175 L.
Ed. 2d 417 (2009). This is an important “corollary” to the exhaustion
requirement. Dretke v. Haley, 541 U.S. 386, 392, 124 S.Ct. 1847,
158 L. Ed. 2d 659 (2004). “Just as in those cases in which a state
prisoner fails to exhaust state remedies, a habeas petitioner who has
failed to meet the State’s procedural requirements for presenting his
federal claims has deprived the state courts of an opportunity to
address” the merits of “those claims in the first instance.” Coleman,
501 U.S., at 731-732, 111 S.Ct. 2546, 115 L. Ed. 2d 640. The
procedural default doctrine thus advances the same comity, finality,
and federalism interests advanced by the exhaustion doctrine. See
McCleskey v. Zant, 499 U.S. 467, 493, 111 S.Ct. 1454, 113 L. Ed.
2d 517 (1991).
Davila v. Davis, 137 S.Ct. 2058, 2064 (2017).
The Sixth Circuit Court of Appeals requires a four-part analysis when the State alleges a
habeas claim is precluded by procedural default. Guilmette v. Howes, 624 F.3d 286, 290 (6th Cir.

14

A-38

Case: l:17-cv-00267-MRB-MRM Doc #: 10 Filed: 05/17/18 Page: 15 of 19 PAGEID #: 538

2010)(en banc)', Eley v. Bagley, 604 F.3d 958, 965 (6th Cir. 2010); Reynolds v. Berry, 146 F.3d
345, 347-48 (6th Cir. 1998), citing Maupin v. Smith, 785 F.2d 135,138 (6th Cir. 1986); accord Lott
v. Coyle, 261 F.3d 594, 601-02 (6th Cir. 2001); Jacobs v. Mohr, 265 F.3d 407, 417 (6th Cir. 2001).
First the court must determine that there is a state procedural rule
that is applicable to the petitioner's claim and that the petitioner
failed to comply with the rule.
Second, the court must decide whether the state courts actually
enforced the state procedural sanction, citing County Court of Ulster
County v. Allen, 442 U.S. 140, 149, 99 S.Ct. 2213, 60 L.Ed.2d 777
(1979).
Third, the court must decide whether the state procedural forfeiture
is an "adequate and independent" state ground on which the state
can rely to foreclose review of a federal constitutional claim.
Once the court determines that a state procedural rule was not
complied with and that the rule was an adequate and independent
state ground, then the petitioner must demonstrate under Sykes that
there was "cause" for him to not follow the procedural rule and that
he was actually prejudiced by the alleged constitutional error.
Maupin v. Smith, 785 F.2d 135,138 (6th Cir. 1986); accord, Hartman v. Bagley, 492 F.3d 347, 357
(6th Cir. 2007), quoting Monzo v. Edwards, 281 F.3d 568, 576 (6th Cir. 2002). A habeas petitioner
can overcome a procedural default by showing cause for the default and prejudice from the asserted
error. Atkins v. Holloway, 792 F.3d 654, 657 (6th Cir. 2015).
Ohio has a single method of presenting claims of ineffective assistance of appellate
counsel: an application for reopening the appeal under Ohio R. App. P. 26(B). Taylor attempted
to raise his claims of ineffective assistance of appellate counsel by filing such an application.
However, the Fourth District declined to reach the merits of his claims because of his failure to
comply with procedural portions of that rule. It held:
{^5} An application for reopening must comply with App.R.
26(B)(2)(a) through (e):
15

A-31

Case: l:17-cv-00267-MRB-MRM Doc #: 10 Filed: 05/17/18 Page: 16 of 19 PAGE ID #: 539

(2) An application for reopening shall contain all of the
following:
(a) The appellate case number in which reopening is sought
and the trial court case number or numbers from which the
appeal was taken;
(b) A showing of good cause for untimely filing if the
application is filed more than ninety days after
journalization of the appellate judgment.
(c) One or more assignments of error or arguments in
support of assignments of error that previously were not
considered on the merits in the case by any appellate court
or that were considered on an incomplete record because
of appellate counsel's deficient representation;
(d) A sworn statement of the basis for the claim that
appellate counsel's representation was deficient with
respect to the assignments of error or arguments raised
pursuant to division (B)(2)(c) of this rule and the manner
in which the deficiency prejudicially affected the outcome
of the appeal, which may include citations to applicable
authorities and references to the record;
(e) Any parts of the record available to the applicant and
all supplemental affidavits upon which the applicant relies.
6} Here Taylor failed to include a sworn statement and parts of
the record as required by App. R. 26 (B)(2)(d) and (e). Under App.
R. 26(B)(2)(d), an applicant must provide a sworn statement of the
basis for his claim that appellate counsel's representation was
deficient and the manner in which the deficiency prejudicially
affected the outcome of the appeal. Taylor’s application contains
only his unsworn statements of appellate counsel's deficiencies and
does not include any statements, sworn or unsworn, about the
manner in which the deficiency prejudicially affected the outcome
of the appeal. Taylor's failure to include a sworn statement in
compliance with App. R. 26(B)(2)(d) is fatal to his application to
reopen. State v. Lechner, 72 Ohio St.3d 374, 375, 1995-Ohio-25,
650 N.E.2d 449 (1995) (the sworn statement required by App. R.
26(B)(2)(d) is mandatory and the court of appeals properly denied
the application because applicant failed to include it); see also State
v. Franklin, 72 Ohio St.3d 372,1995-Ohio-8,650 N.E.2d 447 (1995)
(an affidavit swearing to the truth of the allegations in the
16

A-40

Case: l:17-cv-00267-MRB-MRM Doc #: 10 Filed: 05/17/18 Page: 17 of 19 PAGEID #: 540

application falls short of the requirements set forth in App.R.
26(B)(2)(d); application denied).
7} Taylor also failed to comply with App. R. 26(B)(2)(e), which
requires that he include parts of the record upon which he relies.
Taylor cited to a motion to withdraw, a hearing on the motion, and
various parts of the trial transcript, but did not include any portion
of this record with his application. "App. R. 26(B)(2)(e) places the
responsibility squarely upon the applicant to provide the court of
appeals with such portions of the record as are available to him."
State v. McNeill, 83 Ohio St.3d457,459,1998-Ohio-38,700 N.E.2d
613 (1998) (court of appeals properly denied an application to
reopen on the ground that applicant failed to include portions of the
record); State v. Wolfe, 7th Dist. Belmont No. 97 BA 37,2000-0hio2629, *3 (Dec. 21, 2000) (application denied where appellant cites
to a suppress-Ion motion, a suppression hearing transcript and his
trial transcript but failed to attach any portion of this record to his
application).
A defendant may not point us to pages of the record without
ordering that the record be sent to us or copying the
relevant pages and then hope that we turn his general
allegation of deficiency into a particular one and then hope
that we create our own explanations on how his defense
could have been prejudiced. We are left unaware of the
strength of the three briefly mentioned potential
assignments of error, and as the Supreme Court says,
"refusal to raise these weak arguments simply does not
create a genuine issue of ineffective assistance." State v.
Allen (1996), 77 Ohio St.3d 172, 173.
State v. Wolfe, at *3.
(U18} Taylor has failed to comply with the mandatory requirements
of App. R. 26(B) (2) and failed to demonstrate by sworn statement
or inclusion of relevant portions of the record that there is a genuine
issue regarding the effectiveness of his appellate counsel. We
DENY appellant's application to reopen his appeal.
State v. Taylor, Case No. 15CA12 (Fourth Dist., Aug. 30, 2016)(unreported; copy at ECF No. 6,
PagelD 179 et seq.).
In this case, the Fourth District recognized the existence of an Ohio procedural rule in the
form of a Rule 26(B) application, found that Taylor had not complied with the rule, and enforced
17

A~M

Case: l:17-cv-00267-MRB-MRM Doc #: 10 Filed: 05/17/18 Page: 18 of 19 PAGEID #: 541

it against him.
The adequacy of the state ground is determined by examining the State’s legitimate
interests in the procedural rule in light of the federal interest in considering federal claims. Maupin,
785 F.2d at 138, citing Henry v. Mississippi, 379 U.S. 443, 446-48 (1965). Ohio has a legitimate
judicial economy interest in having ineffective assistance of appellate counsel claims properly
presented for decision by its appellate courts. That interest is independent of federal law.
A habeas petitioner can overcome procedural default by showing excusing cause and
prejudice or actual innocence. Although Taylor recites this standard in his Response (ECF No. 8,
PagelD 514), he makes no effort to show he has complied with the standard. That is, he offers no
explanation for his failure to comply with the procedural requirements of Ohio R. App. P. 26(B)
and no new evidence to show that he is actually innocent. Therefore his Fourth and Fifth Grounds
for Relief should be dismissed.

Conclusion

Based on the foregoing analysis, it is respectfully recommended that the Petition herein be
dismissed with prejudice. Because reasonable jurists would not disagree with this conclusion,
Petitioner should be denied a certificate of appealability and the Court should certify to the Sixth
Circuit that any appeal would be objectively frivolous and therefore should not be permitted to
proceed in forma pauperis.

May 17, 2018.

s/ MicfiaeCR. Merz
United States Magistrate Judge
18

A-tt

Case: l:17-cv-00267-MRB-MRM Doc #: 10 Filed: 05/17/18 Page: 19 of 19 PAGEID #: 542

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R; Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Pursuant to Fed. R. Civ. P. 6(d), this period is extended to seventeen days
because this Report is being served by mail. .Such objections shall specify the portions of the
Report objected to and shall be accompanied by a memorandum of law in support of the objections.
If the Report and Recommendations are based in whole or in part upon matters occurring of record
at an oral hearing, the objecting party shall promptly arrange for the transcription of the record, or
such portions of it as all parties may agree upon or the Magistrate Judge deems sufficient, unless
the assigned District Judge otherwise directs. A party may respond to another party’s objections
within fourteen days after being served with a copy thereof. Failure to make objections in
accordance with this procedure may forfeit rights on appeal. See United States v. Walters, 638 F.2d
......... 947, 949-50 (6th Cir. 1981); Thomas v. Am, 474 U.S. 140, 153-55 (1985).

19

Ml

